APPLICATION AND
SOLICITATION
DISCLOSURE
LIGHTNING CREDIT CARD
WORLD MASTERCARD/MASTERCARD
MASTERCARD SECURED
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

SEFCU Lightning Credit Card

11.24% to 16.24%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
SEFCU World Mastercard

9.24%
This APR will vary with the market based on the Prime Rate.
SEFCU Mastercard

8.24% to 16.24%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
SEFCU Mastercard Secured

6.25%
This APR will vary with the market based on the Prime Rate.
APR for Balance Transfers

SEFCU Lightning Credit Card
11.24% to 16.24%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
SEFCU World Mastercard
9.24%
This APR will vary with the market based on the Prime Rate.
SEFCU Mastercard
8.24% to 16.24%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
SEFCU Mastercard Secured
6.25%
This APR will vary with the market based on the Prime Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03100017-MXC10-C-1-112017 (MXC101-E)

APR for Cash Advances

SEFCU Lightning Credit Card
13.24% to 17.99% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
SEFCU World Mastercard
11.24%
This APR will vary with the market based on the Prime Rate.
SEFCU Mastercard
10.24% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
SEFCU Mastercard Secured
8.25%
This APR will vary with the market based on the Prime Rate.

Penalty APR and When it Applies

None

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

None
None
None
Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Effective Date: The information about the costs of the card described in this application is accurate as of: July 1, 2020
This information may have changed after that date. To find out what may have changed, contact the credit union.

.

For California Borrowers, the SEFCU Lightning Credit Card, SEFCU World Mastercard, SEFCU Mastercard and
SEFCU Mastercard Secured are secured credit cards. Credit extended under this credit card account is secured
by various personal property and money including, but not limited to: (a) any goods you purchase with this
account, (b) any shares you specifically pledge as collateral for this account on a separate Pledge of Shares, (c)
all shares you have in any individual or joint account with the credit union excluding shares in an Individual
Retirement Account or in any other account that would lose special tax treatment under state or federal law, and
(d) collateral securing other loans you have with the credit union excluding dwellings. Notwithstanding the
foregoing, you acknowledge and agree that during any periods when you are a covered borrower under the
Military Lending Act your credit card will be secured by any specific Pledge of Shares you grant us but will not be
secured by all shares you have in any individual or joint account with the credit union. For clarity, you will not be
deemed a covered borrower if: (i) you establish your credit card account when you are not a covered borrower;
or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee: $25.00 or 5.00% of the amount of the required minimum payment, whichever is less if you are 15 or
more days late in making a payment.
Returned Payment Fee: $25.00 or the amount of the required minimum payment, whichever is less.

Mastercard and the Mastercard Brand Mark are registered trademarks of Mastercard International Incorporated.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03100017-MXC10-C-1-112017 (MXC101-E)

